LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

June 16, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-1598:

PROJECT VERITAS ACTION FUND V. RACHAEL S. ROLLINS, IN HER
OFFICIAL CAPACITY AS DISTRICT ATTORNEY FOR SUFFOLK
COUNTY, MASSACHUSETTS

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Accuracy in Media, Coolidge-Reagan Foundation, Leadership Institute, and
Public Interest Legal Foundation referenced above contains 5,951 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 16th day of June 2021.

